NO.

OCTOBER 2019 TERM

IN THE
SUPREME COURT OF THE UNITED STATES

ELVERT S. BRISCOE, JR.-PETITIONER
V.
GARY MOHR, ODRC DIRECTOR, ET AL.-RESPONDENTS

PROOF OF SERVICE

^

I, Elvert S. Briscoe, do swear or declare that on this date,
lfaO'O , as required by Supreme Court Rule 29, I have
served the enclosed Motion for Leave to Proceed in Forma Pauperis
and Petition for Writ of Certiorari on each party to the above
proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the
above documents in the United States Mail properly addressed to
each of then and with first-class postage prepaid.
The names and addresses of those served are as follows:

Thomas Madden, Asst. Attorney General, 150 E. Gay Street-16th
Floor, Columbus, Ohio 43215.
Counsel for: Mohr, Foley, Gillece, Weishar, Eppinger, Costello.
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on

Ji. aotzo
/

Exvert S. Briscoe,
ToCI
K001 E. Central Avenue
Toledo, Ohio 43608

368171

NO.

OCTOBER 2019 TERM
IN THE
SUPREME COURT OF THE UNITED STATES
Elvert S. Briscoe, Jr.-Petitioner
v.
Gary Mohr, ODRC Director, et al.-Respondents

SWORN STATEMENT
28 U.S.C. ยง 1746 DECLARATION
I declare or certify, verify, state under penalty of perjury
that the foregoing itrue and correct.
2020.

Executed on September 14,

The foregoing Writ of Certiorari was placed in the prison

mail pursuant to Rule 29.2 and Rule 30.1 to the United States
Supreme Court via first-class prepaid United -States mail.

0A368171
Toledo, Ohio 43608
Petitioner, pro-se

